FEDERAL PUBLIC DEFENDER
WESTERN DISTRICT OF MISSOURI
1000 WALNUT STREET
SUITE 600
KANSAS CITY, MISSOURI 64106
LAINE CARDARELLA
(816) 471-8282
FEDERAL PUBLIC DEFENDER
(FAX): (816) 471-8008
http://mow.fd.org
November 20, 2020
Honorable Scott S. Harris, Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: McGee v. United States, 20-5773
Dear Mr. Harris:
Petitioner William McGee wishes to alert this Court of the Fourth Circuit’s
order granting the petition for rehearing in United States v. Medley. 18-4789 (filed
on November 12, 2020). The Fourth Circuit’s decision to rehear Medley underscores
the need for this Court to grant the petition for certiorari in this case that addresses
the question expressly reserved in Rehaif v. United States, whether “any error in
the jury instructions in this case was harmless.” 139 S.Ct. 2191, 2200 (2019).
It is undisputed that whether Rehaif error in jury instructions is harmless is
“of exceptional importance.” U.S. petition for rehearing in Medley, pg. 2-3. Based on
the Fourth Circuit’s decision to rehear Medley, it will not be an available vehicle for
this Court to resolve this important question this Term.
The timeliness issue is important. The government stressed in its petition for
certiorari in United States v. Garry, No. 20-444 — which presents a related issue
pertaining to Rehaif error involving guilty pleas — that the Court should “grant
certiorari and decide the case on the merits during the current Term.” Pet. 21.
Petitioner agrees with the government. But this Court should also grant certiorari
to answer this distinct question reserved by this Court in Rehaif this Term, along
with Gary. See McGee Reply, pg. 1-3.
This case was originally distributed for conference on December 4, 2020, but
this Court rescheduled that date. The parties in Gary will have briefing completed
so it will be distributed for conference on January 8, 2021. See Gary 10/13/2020
motion for continuance. This Court should consider distributing this case for
conference then, so it may grant both petitions for certiorari contemporaneously.

Sincerely,
s/Dan Goldberg
Dan Goldberg
Assistant Federal Public Defender
DG/se

